                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEO'LTT MEMORANDUM

 Case
        I
            umber:       I03080033
                                                                                   11          Page 1 of 1



        'The National Science Foundation @SF) Office of Inspector General (OIG) selected this award as
         part of a review of conferences, workshops and symposia with respect to compliance with
        !programincome requirements. A review of material pertaining to this grant indicated that the
                         '
         University may have used Federal funds for a social banquet, which included charges for
         alcohol. Financial documents identified a separate account containing a balance fiom
         registration fees collected for the grant conference.

            NSFIOIG contacted the University Account ~ a n a ~who    e r advised
                                                                         ~       that the balance of
            registration fees had been returned via the Federal Cash Transaction Report (FCTR). The
            Account Manager explained that the University was unaware of the rules associated with
            conference grants. The Account ~ a n a g eprovided
                                                         r~       ernails between the Principal Investigator
            (PI) and the Program Officer, which indicated that the institution was given implied approval to
            use the program income to pay for banquet activities.

            NSFIOIG acknowledges that the Program Officer may have inappropriately given approval for
            the social banquet but advised the University that the awardee is responsible for using the grant
            funds in accordance with the applicable Federal grant conditions and that the purchase of alcohol
            is unallowable. The awardee reimbursed NSF for the unallowable charges.'

            The University returned the Program income that was inappropriately used to NSF. Accordingly,
            this case is closed.
             I




              Footnote redacted
              Footnote redacted
              Footnote redacted
            4
              Footnote redacted
              Footnote redacted



NSF OIG Form 2 (11/02)
